No. 21IN THE

Supreme Court of the United States
ROCKET MORTGAGE, LLC, ET AL.,
Petitioners,
v.
PHILLIP ALIG, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 17th day of September, 2021,
served three copies of the Petition for a Writ of Certiorari upon each party separately
represented in this proceeding by causing the copies to be delivered by first-class mail
to counsel of record at the address listed below:
Deepak Gupta
GUPTA WESSLER PLLC
2001 K Street, NW
Suite 312
Washington, DC 20006
deepak@guptawessler.com
Counsel for Respondents
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused an
electronic copy of the petition to be served on the parties at the email address listed
above.

I further certify that all persons required to be served have been served.

September 17, 2021

William M. Jay
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, D.C. 20036
wjay@goodwinlaw.com
(202) 346-4000
Counsel of Record for Petitioners

2

